                                                            IG-99-054




AUDIT
                               JPL Management of Subcontractor
REPORT                             Technical Performance

                                      September 28, 1999




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this audit report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W, Room 8V69
               300 E Street, SW
               Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at
(800) 424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.



Acronyms

OIG            Office of Inspector General
JPL            Jet Propulsion Laboratory
NMO            NASA Management Office
NEQA           NASA Engineering and Quality Audits
NPG            NASA Procedures and Guidelines
OSS            Office of Space Science
SIRTF          Space Infrared Telescope Facility
W                                                                      September 28, 1999


TO:            SJ/Director, NASA Management Office, Jet Propulsion Laboratory

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final Report of JPL Management of Subcontractor Technical Performance
               Assignment Number A9900400
               Report Number IG-99-054


The subject final report is provided for your use and comment. Our evaluation of your
response is incorporated into the body of the report. The management response did not
provide the specific corrective actions to be taken, the policies and procedures that will be
revised, or an estimated completion date for the corrective actions. We request that
information by October 28, 1999, in response to the final report. Accordingly, the
recommendation will remain open for reporting purposes. Please also notify us when
action has been completed on the recommendation, including the extent of testing
performed to ensure corrective actions are effective.

If you have questions concerning the report, please contact Mr. Daniel Samoviski, Audit
Program Director for Earth and Space Science Audits, at (301) 286-0497, or Mr. James
Hoogoian, Auditor-in-Charge, at (818) 354-9754. We appreciate the courtesies extended
to the audit staff. The report distribution is in Appendix E.

[original signed by]
Russell A. Rau

Enclosure
cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
Q/Associate Administrator for Safety and Mission Assurance
S/Associate Administrator for Space Science
JM/Director, Management Assessment Division
                                  NASA Office of Inspector General

IG-99-054                                                                                  September 28, 1999
 A9900400

                                  JPL Management of Subcontractor
                                       Technical Performance


Introduction

On September 21, 1998, NASA entered into contract NAS7-1407 with the California Institute of
Technology to operate the Jet Propulsion Laboratory, a Federally Funded Research and
Development Center. The contract is a cost-plus-award-fee contract for which the value is
determined by the sum of the estimated costs of taskings issued under the contract. JPL spent
about $1.2 billion on task orders in fiscal year 1998. Of that amount, about $754 million was
spent on procurements for both project and institutional purposes.1 The overall audit objective
was to determine whether JPL is managing subcontracts effectively and efficiently to ensure that
program and/or project objectives are being met. The audit identified a condition related to
JPL’s controls for managing subcontractor activities. See Appendix A for details on our scope
and methodology.

Results in Brief

JPL is generally managing subcontracting in an effective and efficient manner to achieve
program and project objectives. JPL’s acquisition strategy process adequately addresses project
management requirements, and project managers followed the acquisition strategies in executing
the resulting subcontracts. However, JPL’s most significant subcontracts were not subjected to
adequate surveillance. Subcontractor data disclosed problems in the designing, building, and
safeguarding of hardware, inadequate application of workforce, and employee noncompliance
with quality system procedures. JPL did not act on these problems in a timely manner, in part,
due to the lack of surveillance activity to identify and correct problems.

Background

JPL’s fiscal year 1999 Implementation Strategy, which describes how JPL will implement
NASA’s mission, incorporates NASA’s emphasis on doing business “faster, better, cheaper.”
The “faster, better, cheaper” philosophy addresses the National Space Policy, September 19,
1996, which requires NASA to:




1
    JPL’s procurement information system does not separately identify subcontracts for project hardware and software.
• Reduce mission costs and development times by implementing innovative procurement
    practices, validating new technologies, and promoting partnerships between governments,
    industry, and academia.

• Acquire spacecraft and other capabilities from the private sector where feasible.

To meet these requirements, JPL’s fiscal year 1999 Implementation Strategy states that JPL will:

• Use small, frequent, low-cost missions to meet its goals.

• Increase the opportunities for American business to participate in NASA programs.

The introduction of the “faster, better, cheaper” philosophy challenged JPL to change its
management practices in two ways. First, JPL is now involved in frequent, low-cost planetary
missions. As a result, JPL has had to adapt to more projects with shorter schedules and reduced
budgets. For example, five launches occurred from October 1, 1998, to March 31, 1999, as
opposed to a previous launch rate of one every 2 years. Second, the increase in projects has
resulted in contracting out more spacecraft production. Accordingly, JPL is relying on
subcontractor controls more so than in the past.

JPL management has made the following infrastructure investments to provide future missions
the means to achieve the goals of the “faster, better, cheaper” philosophy.

• Created a Product Design Center in 1994 to assist in cost and schedule of spacecraft design.
• Identified and proved new technology under separate projects to reduce cost and schedule
  risks to spacecraft missions starting in 1995.
• Implemented Process Based Management in 1996, which assisted JPL’s quality system in
  becoming International Organization of Standardization (ISO) 90012 certified.

Although JPL is changing its ways of doing business, additional improvements are needed.

Subcontractors’ Technical Performance

Finding. JPL oversight of subcontractor technical performance needs improvement. JPL does
not have adequate policy for monitoring subcontractor performance. For example, JPL has not
adopted the practice of performing engineering and quality audits as prescribed in NASA policy.
As a result, subcontractors have incurred excessive costs to correct technical problems that could
have been prevented or mitigated to some extent.



2
  The ISO 9000 standards represent an international consensus on good management practices with the aim of
ensuring that the organization can time and time again deliver the product or services that meet the client's quality
requirements.


                                                       2
NASA and JPL Management Controls

The NASA Office of Space Flight recognizes the value of preventing problems in its programs
by implementing NASA Engineering and Quality Audits (NEQAs), which are required by NASA
Procedures and Guidelines (NPG) 7120.5A, effective April 3, 1998. The JPL contract references
NPG 7120.5A.3 The NEQAs review the accuracy and application of all subcontractor processes
involved in the subcontractor operations affecting NASA’s projects. The Office of Space Flight
implemented these audits at major program contractors because past compliance audits had failed
to prevent defects in safety-critical items. The NEQA’s verify the accuracy of work
documentation and procedures, that operators are rigorously following official procedures and
understand them, that operators are adequately trained, and that all supporting systems are in
place and functioning as intended.

JPL’s current Acquisition Procedure 2-9 identifies controls that address the need to monitor
subcontractor performance while recognizing that the level of monitoring should be tailored to
the contract scope, type, and nature. However, neither Procedure 2-9 nor any other JPL policy
describes how to develop a subcontractor assessment and surveillance plan to proactively verify
and ensure that subcontractors strive to prevent technical problems. Some JPL project managers
took action in the absence of such guidance. For example, to prevent specific past problems
from reoccurring, some JPL project managers have shared lessons learned. In addition, one
project manager implemented a documented surveillance plan of subcontractor mission
assurance activities. However, the actions did not proactively address the wide range of reasons
for technical problems indicated by subcontractor data.

Subcontractor Technical Problems Incurred on JPL Projects

Our review of project data obtained from subcontractors and JPL for five JPL projects4 (see a
glossary of the projects in Appendix B) disclosed the following three areas that resulted in
subcontractor technical problems and increased project costs.

• Hardware Nonconformances. Subcontractor information systems track hardware
    nonconformances5 and what caused them. The subcontractor for the two completed projects,
    Stardust and Mars 98, categorized the majority of the causes as poor employee workmanship,
    inadequate supplier procedures, and ineffective engineering design issues. For example,
    engineering design issues accounted for 15 percent of the nonconformances on the Stardust
    project and for 17 percent of nonconformances on the Mars 98 project. This reduces the

3
  JPL contract Section G-11, “Program and Project Management,” requires JPL to manage projects under the
direction of NASA Procedures and Guidelines (NPG) 7120.5A, “Program and Project Management Processes and
Requirements.” Section 4.5.1.2.c of the NPG, “Safety and Mission Success, and Environmental Management,”
requires the safety and mission success activity to utilize a quality management system governed by the ISO 9000
standard, appropriate surveillance, and NASA Engineering and Quality Audits. The contract allows JPL to tailor this
NPG requirement commensurate with risk management, program/project life cycle, and resources.
4
  We selected JPL’s Mars 98, Mars 01, Stardust, Genesis, and Space Infrared Telescope Facility (SIRTF) programs
because they had or were expected to have subcontracts with a value of more than $50 million and because they were
significant to JPL’s mission.
5
  A hardware nonconformance exists when hardware does not meet design requirements.


                                                    3
   subcontractor’s efficiency since additional resources must be expended to determine the
   appropriate corrective action. Figure 1 shows the significance of specific cause categories for
   the two projects.


                             25
       Percentage of Total
        Nonconformances



                             20
                                                                                          Stardust Percentages
                             15
                                                                                          Mars 98 Percentages
                             10
                              5
                              0
                                           r




                                                                                            g
                                                                        .
                                         'g




                                                                       s




                                                                                             s




                                                                                             t
                                                                                          on
                                                                                           st
                                        ee




                                       n*
                                       lie




                                                                    isc




                                                                                        en
                                                                      n

                                                                    ne




                                                                                         se


                                                                                           t
                                                                                         in
                                      gr




                                                                                       en
                                                                                       Te
                                                                 tio
                                    oy




                                                                                      isi
                                     w
                                   pp




                                                                                      dl

                                                                                      es




                                                                                    pm
                                                                M




                                                                 hi
                                  En




                                                                                   nm
                                 no




                                                               ta




                                                                                   rv

                                                                                   an
                                  pl




                                                                                   oc
                                                              ac
                                Su




                                                                                 ui
                                                            en
                              Em




                                                                                pe
                               nk




                                                                                ro
                                                                                 H

                                                                                Pr
                                                            M




                                                                               Eq
                                                          um




                                                                              vi
                                                                             Su
                             U




                                                                            En
                                                        oc
                                                       D




                                                                Cause Category
                              *Unknowns represent nonconformances for which sufficient information was not
                               available for subcontractors to determine a cause.

   Figure 1. Nonconformance Cause Categories for Stardust and Mars 98


   In some cases, subcontractors estimated the cost of addressing nonconformances. For
   example, subcontractor personnel estimated that the cost of reworking glass body diodes on
   the Mars 98 Orbiter and Lander hardware was $800,000, while the cost of reworking
   supplier-provided solar arrays on the Stardust project was $105,000. Mars 98 project costs
   were increased by $200,000 when the medium gain antenna was damaged during testing.
   Appendix C contains other examples of nonconformances that JPL project management
   considered significant.

   JPL project management did not ensure that subcontractors improve practices that cause
   hardware nonconformances. Further, JPL policy does not include management controls such
   as NEQAs or the equivalent corrective action to ensure that subcontractors, through follow-
   up, improve practices that cause technical problems. During project development, JPL
   project management should have assessed subcontractors’ processes for preventing,
   detecting, and correcting nonconformances and should have improved subcontractor
   accountability for implementing effective practices.

• Workforce Levels. For all five projects reviewed, the actual subcontractor workforce was
   less than planned early in the project and greater than planned later in the project. For
   example, Stardust actual workforce was less than planned by as much as 45 percent in the
   first 6 months and up to 130 percent greater than planned during the later two-thirds of the
   project. Genesis, Stardust’s follow-on project by the same subcontractor, has been in process
   for 13 months and is experiencing the same workforce problem. Furthermore, the actual


                                                               4
  workforce for the remaining two-thirds of the Mars 98 project averaged 80 percent more than
  planned. Mars 01, the follow-on project for Mars 98 by the same subcontractor, is also
  experiencing a similar problem. The Space Infrared Telescope Facility (SIRTF) project is
  experiencing the same condition at one of its five hardware providers. Figure 2 shows the
  actual and planned workforce for the Stardust project.


                       250
Full-Time Equivalent




                                                                                            Stardust Actual
                       200
     Employees




                                                                                            Stardust Plan
                       150

                       100
                        50
                         0
                             1   3   5   7   9   11      13    15   17   19       21   23   25   27    29

                                                      Project Life-Cycle Months

  Figure 2. Workforce Variances in the Stardust Project Life Cycle

  Applying a smaller workforce than planned reduces the ability to accomplish project
  development milestones. Performance measurement data showed that subcontractors were
  not meeting milestones early in the project. Subcontractors must expend additional resources
  to reschedule delayed tasks, develop work-around activities, and meet schedules. The costs
  of rescheduling and work-around activities add no value to the project. In addition, since
  engineering design decisions are made early in the project life cycle, not applying workforce
  when needed could result in ineffective engineering decisions when trying to meet a project
  milestone.

  Applying a larger workforce than planned to meet final spacecraft delivery shows poor
  subcontractor planning in that the subcontractor did not anticipate normal development
  problems requiring additional workforce. Since the subcontracts are negotiated based on this
  planned workforce, significant increases in actual over the planned workforce require
  changes to subcontracts in order for the subcontractors to be paid for additional workforce
  costs. For example, Mars 98 project management negotiated three subcontractor cost growth
  proposals during the project life-cycle. Preparing, reviewing, negotiating, and incorporating
  this type of contract change requires additional resources that increase project costs.

  JPL project management did not review subcontractor processes for estimating the workforce
  needed to support their projects, and JPL policy does not specify the management controls to
  ensure subcontractors propose a more realistic workforce. JPL should have validated the
  realism of the planned workforce early in the project life cycle, required the subcontractors to
  propose more realistic estimates where needed, and held subcontractors accountable for
  applying the needed workforce.




                                                           5
• Employee Compliance with Procedures. We obtained statistical information on
   subcontractor internal audits of company procedures and practices at two subcontractor
   locations. This information disclosed that 60 percent of the audit findings were attributable
   to employees not complying with procedures. Subcontractors design the procedures to help
   ensure efficient and effective accomplishment of project objectives. Subcontractor employee
   noncompliance with company procedures exposes JPL projects to a greater potential for poor
   quality and cost increases.

   JPL project management had not reviewed the subcontractors’ internal audit processes and
   audit findings related to their projects. In addition, JPL policy does not identify management
   controls to ensure that subcontractors implement effective internal audit processes or that
   project managers are aware of audit findings affecting their project. JPL project management
   should have assessed the effects of subcontractors’ internal audit findings on their projects
   early in the project life cycle. In addition, JPL should have assessed subcontractor internal
   audit processes to determine whether audits have or will cover operations affecting JPL
   projects and whether subcontractors resolve audit findings in a timely manner.

JPL project managers discuss technical problems in weekly and monthly meetings as the
problems emerge. JPL managers track the effects and the resolution of problems through
disposition. Although this practice corrects the detected problem, it is reactive and more costly
than preventing problems. While all technical problems cannot be prevented, proactive
intervention increases the likelihood that problems will be detected early and helps minimize the
adverse effects on project cost and schedule.

Effects of Technical Problems on Projects

JPL has not applied sufficient resources or ensured that subcontractors implement procedures
that resolve ineffective practices. JPL project managers stated that subcontractors are selected on
their capabilities to perform and that the managers rely on the subcontractors’ processes to
prevent technical problems. JPL project managers added that becoming proactively involved in
ensuring that subcontractors have implemented effective procedures would consume resources
needed to complete the project.

JPL management took some actions to reduce project technical problems, such as studying
project software development problems and asking project managers for three completed projects
to provide subcontractors the lessons learned to identify common issues. JPL management has
also established Design, Verification/Validation and Operations Principles for Flight Systems to
avoid design and test deficiencies. These actions are a step in the right direction in reducing
project costs; however, additional actions are needed to ensure that subcontractors improve
practices that will reduce nonconforming hardware and other project problems. Resources must
be expended to analyze the reasons for problems and to take corrective action where needed.

Addressing technical problems after they occur increases project costs. The following table
shows the increase in subcontract costs (cost growth) from the initial baseline budget to final cost
for the two completed projects we reviewed.


                                             6
                                     Subcontractor Cost Growth

         Completed      Initial Baseline    Final Cost     Cost Growth       Cost Growth
          Project          (millions)       (millions)      (millions)      (% to baseline)

          Mars 98            $84.7           $121.3            $37.1             44%
          Stardust           $70.4           $ 75.6            $ 5.2              7%


In addition to increasing project costs, subcontractor personnel on the Mars 98 and Stardust
projects were required to work 70 hours a week or more to meet the final delivery date. This
could have an adverse effect on employee morale and increases the potential for human errors.
Rushing to meet milestones could also result in engineering decisions being made based on
schedule need instead of the need to reduce risk of failure.

Taking a more proactive approach to problem solving would reduce the cost of correcting
problems after they have occurred. As project management increases its use of preventive
techniques, it can achieve intended results at a lower cost.

Recommendation, Management’s Response, and Evaluation of Response

The Director, NASA Management Office, should direct the JPL Director to revise current
project management policies to require project management assessment and monitoring of
subcontractor procedures to ensure that they are designed and functioning to prevent,
detect, and correct technical problems.

Management’s Response. Partially Concur. The NASA Management Office (NMO) and the
Office of Space Science (OSS), NASA Headquarters, acknowledge the need for JPL to reduce
costs and improve processes. JPL is operating consistent with NPG 7120.5A requirements, its
NASA Engineering and Quality Audit requirements through its commitment to ISO, and Process
Based Management. JPL was ISO certified in April 1999, and the subcontractor for the Mars 98
and Stardust projects was certified in December 1996. In addition, JPL has developed a set of
Design, Verification/Validation and Operations Principles that project managers must follow.
JPL is also developing similar principles for software. JPL has also improved communications
among projects on lessons learned and process improvements by conducting monthly project
managers’ meetings. The NMO and OSS believe that the award fee reduction for the Mars 98
project from $12.5 million to $3.5 million is a strong incentive for the subcontractor to “strive to
prevent technical problems.”

NASA will advise JPL to continue to improve its project management policies and practices,
within the faster, better, cheaper; ISO 9000; and Performance Based Contracting environment, so
as to provide an incentive for JPL subcontractors to perform in an efficient and timely fashion.




                                             7
Evaluation of Management’s Response. Management's response does not identify specific
corrective actions that will that be taken or the policies that will be revised to require project
managers to perform assessments of subcontract monitoring needs and to develop and implement
subcontractor monitoring procedures. In addition, management did not provide an estimated
completion date for the corrective action. The NMO and OSS are relying on ISO certification,
Process Based Management, Performance Based Contracting, and contract incentive fees, along
with other principles developed by JPL to ensure subcontractor procedures are designed and
functioning to prevent, detect, and correct technical problems. Our report shows that this
reliance has not ensured that JPL policies and procedures address significant subcontractor
problems that have increased project costs and exposed projects to failure.

The examples of subcontractor problems discussed in this report and the recent loss of a Mars 98
spacecraft in flight illustrate how ISO certifications, Process Based Management, and
Performance Based Contracting alone do not ensure project success. JPL has been operating
under Performance Based Management since 1996, well before the launch of the lost spacecraft
in January 1999. In addition, the subcontractor who built the lost spacecraft operated under a
JPL Performance Based incentive fee contract and was ISO certified in December 1996. The
same subcontractor, while ISO certified, was responsible for the loss of four spacecraft from
August 1998 through May 1999 as a result failures in its launch vehicle product. Although JPL’s
principles for flight systems are a step in the right direction, policies and procedures should be
revised to require project managers to follow these principles.

We request that management provide specific actions that will be taken, identify the policies and
procedures that will be revised, and provide estimated completion dates for the recommended
corrective actions. Accordingly, the recommendation is unresolved and will remain
undispositioned and open until corrective action is completed.




                                            8
                 Appendix A. Objectives, Scope, and Methodology

Objective

The overall objective was to determine whether the JPL is managing subcontracts effectively and
efficiently to ensure program and/or project objectives are being met. Specifically, we
determined whether JPL:

• developed an acquisition plan that addresses the program and/or project requirements,

• executed subcontract management in accordance with the developed program and/or project
   acquisition plan, and

• monitored subcontractor performance to ensure that technical requirements are met.

Scope and Methodology

During the audit, we:

   •   Interviewed JPL project management, Engineering and Mission Assurance, and
       acquisition personnel to obtain background information and documents.
   •   Reviewed the JPL contract NAS7-1407, dated September 21, 1998.
   •   Visited contractors’ facilities, and obtained information from the management staff.
   •   Reviewed JPL’s Policy, “Monitoring Performance of Suppliers,” May 4, 1999.
   •   Reviewed JPL’s Policy, “Project Planning,” March 5, 1999.
   •   Reviewed JPL’s Acquisition Procedure 2-9, “Mission Assurance,” January 8, 1997
   •   Reviewed the “JPL Acquisition Strategy Process Functional Description,”
       September 14, 1997.
   •   Reviewed JPL’s “Project Control Guidebook for Project Managers,” December 22, 1998.
   •   Reviewed JPL’s “Process for Tailoring Mission Assurance to Specific Projects,” January
       1997.
   •   Reviewed NPG 7120.5A, “Program and Project Management Processes and
       Requirements,” April 3, 1998.
   •   Reviewed “NASA Marshall Space Flight Center, Marshall Work Instruction – NASA
       Engineering and Quality Audit,” May 14, 1999.
   •   Reviewed JPL and subcontractor project data related to nonconforming hardware,
       workforce staffing, and internal audits.
   •   Consulted NASA Safety and Mission Assurance personnel regarding the NASA
       Engineering and Quality Assurance Audit process.




                                           9
Appendix A

To document JPL practices for managing subcontractor technical performance, we selected projects
if they had or were expected to have subcontracts with a value of more than $50,000,000 and they
were significant to JPL’s mission. We selected subcontractor site visits based on the ability of the
audit team to obtain adequate information on JPL subcontractor management practices in a timely
manner.

Management Controls Reviewed

We reviewed the following management controls:

   •   NPG 7120.5A, “NASA Program and Project Management Processes and Requirements,”
       April 3, 1998.
   •   JPL’s contract NAS7-1407, dated September 21, 1998.
   •   JPL Policy, “Monitoring Performance of Suppliers.”

We considered JPL controls adequate except they should be strengthened to ensure subcontractor
practices associated with engineering, manufacture, assembly, test, and processing of flight
hardware and software are effective. Details are in the finding section of the report.

Audit Field Work

We performed the audit field work from November 1998 through July 1999 at JPL and
subcontractor locations in Sunnyvale, California, and Denver and Boulder, Colorado. We
conducted the audit in accordance with generally accepted government auditing standards.




                                            10
                              Appendix B. Project Glossary
________________________________________________________________________

Mars 98. The Mars 98 project consists of an Orbiter and Lander, which were launched on
December 11, 1998, and January 3, 1999, respectively. The Orbiter will arrive at Mars in
September 1999 and will use a series of aerobraking maneuvers to achieve a stable orbit. Once
in orbit, the Orbiter will use atmospheric instruments and cameras to provide detailed
information about the surface and climate of Mars. The Lander should land on December 3,
1999, near the southern polar cap of Mars. The Lander is equipped with cameras, a robotic arm,
and instruments to measure the Martian soil composition.

Stardust. The Stardust spacecraft was launched on February 7, 1999. Stardust is on a flight path
that will deliver it to a comet (Comet Wild-2) on January 2, 2004. The spacecraft will gather
particles flying off the nucleus of the comet. In addition, Stardust will attempt to gather samples
from a stream of interstellar dust that flows through the solar system. Captured in a glass foam
called aerogel, the samples will be enclosed in a clamshell-like device that will be dropped off
for reentry into Earth’s atmosphere in January 2006. Equipped with parachutes, the capsule will
float to a preselected spot in the Utah desert, where it will be retrieved and its contents delivered
to scientists for analysis.

Mars 01. The Mars 01 project also consists of an Orbiter and Lander. The Orbiter is scheduled
for launch on March 30, 2001, and should arrive at Mars on October 20, 2001. The Orbiter will
carry three instruments, the Thermal Emission Imaging System, the Gamma Ray Spectrometer,
and the Mars Radiation Environmental Experiment. The Lander is scheduled for launch on
April 10, 2001, and should land on Mars on January 22, 2002. The Lander will carry an imager
to take pictures of the surrounding landscape. The Lander will also be a platform for instruments
and technology experiments to provide information for future human missions to Mars. Current
plans are to send the Marie Curie rover to Mars on the Lander.

Genesis. The Genesis spacecraft is scheduled for launch January 2001. Genesis will be
positioned at a point between Earth and the Sun where the gravity of both bodies is balanced.
Once in orbit, Genesis will collect particles of the solar wind in specially designed high purity
wafers. After 2 years, the samples will be restowed and returned to Earth where a mid-air
recovery of the return capsule will take place over the Utah desert. NASA will make the samples
available for scientific study.

Space InfraRed Telescope Facility (SIRTF). SIRTF is scheduled for launch in December 2001.
SIRTF is the fourth and final element in NASA’s family of “Great Observatories” that include
the Hubble Space Telescope, the Compton Gamma Ray Observatory and the Advanced Chandra
X-Ray Telescope Facility. SIRTF will use infrared telescopes whose unique capability lies in
their ability to sense the heat of dark, faint, or hidden objects. SIRTF is expected to be
operational from 2.5 to 5 years.




                                             11
      Appendix C. Additional Examples of Significant Nonconformances

The examples below address issues associated with hardware provided to subcontractors by
suppliers. JPL project management did not review subcontractor practices for ensuring that
suppliers provide hardware that meets project requirements. In addition, JPL policy does not
specify management controls that would ensure that subcontractors implement effective supplier
management processes. During the project development process, JPL project management
should have assessed subcontractors’ processes for managing suppliers and held subcontractors
accountable for implementing effective practices.

Inertial Measurement Unit

Two Inertial Measurement Units (IMU’s) purchased from a supplier did not meet requirements.
Although the supplier claimed that its new design would meet the subcontractor’s requirements,
the supplier had not proven the design for the temperature ranges required. Although the
subcontractor was aware of potential leakage problems, it took delivery from the supplier. The
subcontractor later discovered that the IMU’s leakage rates were significantly greater than
expected. Although, the supplier absorbed the cost of extensive rework, the subcontractor spent
resources assisting in analyzing and tracking the problem.

Field Programming Gate Array (FPGA)

FPGA’s were not functioning properly on interface cards between spacecraft and instruments.
The FPGA’s were radiation hardened as required; however, this hardening process caused some
of them to function improperly. The subcontractor did not test the FPGA’s to determine whether
they met requirements before installation. Additional costs were expended to remove the cards,
replace the bad parts, and retest the interface cards.

2N2222 Transistors

A transistor failed during a higher level assembly test. The subcontractor analyzed the transistor
that failed and found that they were contaminated. The subcontractor accepted the transistors
and installed them without determining whether they met requirements.

Bussman Fuses

A fuse failed during a circuit board test. A wire inside the fuse did not protrude enough to have
the desired contact with the end cap. The fuse, as delivered, met inspection criteria; however, the
subcontractor did not require an inspection of the wire contact with the cap and a destructive part
analysis to determine whether the fuses met requirements. The subcontractor expended
additional resources to determine which fuses had to be replaced, performed the replacements,
and tested the circuit board again.




                                            12
                                                                                     Appendix C

Pyro Valve

The valve uses an explosive charge to insert a cylinder in a tube that stops or reduces fuel flow.
The supplier discovered that when the valve was fired, the cylinder was not functioning properly.
As a result, fuel was continuing to flow. This resulted in significant investigation and system
analysis to determine the cause. The subcontractor elected to use the parts in all applications
except one. Subcontractor documents show that correcting this problem increased project costs
by approximately $200,000.




                                            13
Appendix D. Management’s Response




             14
     Appendix D




15
Appendix E. Report Distribution

NASA Headquarters

A/Administrator
AI/Associate Deputy Administrator
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, Jet Propulsion Laboratory
Chief Counsel, Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
 Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
 Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                           16
                                                                                  Appendix E

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                          17
Major Contributors to the Report

Daniel J. Samoviski, Program Director, Earth and Space Science Audits

James Hoogoian, Auditor-in-Charge

Larry Timmons, Auditor

Nancy C. Cipolla, Report Process Manager

Iris Purcarey, Program Assistant
